<html>
<title> - EMPOWERING U.S. VETERANS THROUGH TECHNOLOGY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




                        EMPOWERING U.S. VETERANS
                           THROUGH TECHNOLOGY

=======================================================================

                             JOINT HEARING

                               BEFORE THE

               SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY &
                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 22, 2018

                               __________

                           Serial No. 115-61

                               __________

 Printed for the use of the Committee on Science, Space, and Technology





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://science.house.gov
       
       
                                    ______
       		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
       		 
 30-324 PDF                   WASHINGTON : 2018                 
             
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           CONOR LAMB, Pennsylvania
BARRY LOUDERMILK, Georgia            JERRY McNERNEY, California
RALPH LEE ABRAHAM, Louisiana         ED PERLMUTTER, Colorado
GARY PALMER, Alabama                 PAUL TONKO, New York
DANIEL WEBSTER, Florida              BILL FOSTER, Illinois
ANDY BIGGS, Arizona                  MARK TAKANO, California
ROGER W. MARSHALL, Kansas            COLLEEN HANABUSA, Hawaii
NEAL P. DUNN, Florida                CHARLIE CRIST, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
DEBBIE LESKO, Arizona
                                 ------                                

                Subcommittee on Research and Technology

                 HON. BARBARA COMSTOCK, Virginia, Chair
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             ELIZABETH H. ESTY, Connecticut
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
BARRY LOUDERMILK, Georgia            SUZANNE BONAMICI, Oregon
DANIEL WEBSTER, Florida              AMI BERA, California
ROGER W. MARSHALL, Kansas            DONALD S. BEYER, JR., Virginia
DEBBIE LESKO, Arizona                EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas
                                 ------                                

                         Subcommittee on Energy

                   HON. RANDY K. WEBER, Texas, Chair
DANA ROHRABACHER, California         MARC A. VEASEY, Texas, Ranking 
FRANK D. LUCAS, Oklahoma                 Member
MO BROOKS, Alabama                   ZOE LOFGREN, California
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
THOMAS MASSIE, Kentucky              JACKY ROSEN, Nevada
STEPHEN KNIGHT, California           JERRY McNERNEY, California
GARY PALMER, Alabama                 PAUL TONKO, New York
DANIEL WEBSTER, Florida              BILL FOSTER, Illinois
NEAL P. DUNN, Florida                MARK TAKANO, California
RALPH NORMAN, South Carolina         EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas




















                            C O N T E N T S

                              May 22, 2018

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Barbara Comstock, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     4
    Written Statement............................................     6

Statement by Representative Daniel Lipinski, Ranking Member, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     8
    Written Statement............................................    10

Statement by Representative Lamar Smith, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    12
    Written Statement............................................    13

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    15
    Written Statement............................................    16

                               Witnesses:

Dr. Dimitri Kusnezov, Chief Scientist, National Nuclear Security 
  Administration, U.S. Department of Energy
    Oral Statement...............................................    18
    Written Statement............................................    20

Mr. Christopher Meek, Founder and Chairman, SoldierStrong
    Oral Statement...............................................    30
    Written Statement............................................    32

Ms. Martha MacCallum, Advisory Board Member, SoldierStrong
    Oral Statement...............................................    37
    Written Statement............................................    39

Mr. John Wordin, President and Founder, Project Hero
    Oral Statement...............................................    42
    Written Statement............................................    45

Dr. Matthew J. Major, Research Health Scientist and Assistant 
  Professor of Physical Medicine and Rehabilitation, Northwestern 
  University
    Oral Statement...............................................    64
    Written Statement............................................    66

Discussion.......................................................    77

             Appendix I: Answers to Post-Hearing Questions

Dr. Dimitri Kusnezov, Chief Scientist, National Nuclear Security 
  Administration, U.S. Department of Energy......................    98

            Appendix II: Additional Material for the Record

Statement submitted by Representative Randy K. Weber, Chairman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................   102

Statement submitted by Representative Marc A. Veasey, Ranking 
  Member, Subcommittee on Energy, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................   104

 
                        EMPOWERING U.S. VETERANS
                           THROUGH TECHNOLOGY

                              ----------                              


                         TUESDAY, MAY 22, 2018

                  House of Representatives,
        Subcommittee on Research and Technology and
                            Subcommittee on Energy,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to call, at 10:00 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Barbara 
Comstock [Chairwoman of the Subcommittee on Research and 
Technology] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Comstock. The Committee on Science, Space, and 
Technology will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    Good morning, and welcome to today's hearing titled, 
``Empowering U.S. Veterans through Technology.'' I now 
recognize myself for five minutes for an opening statement.
    The impetus for today's hearing goes back a year or so to 
May 2017, when I first met one of our witnesses, John Wordin, 
at a Ride 2 Recovery event for veterans in my district in 
Manassas, Virginia. I heard firsthand from John about the 
HEROTrak system and the wearable health-monitoring device with 
software designed to help veterans suffering from post-
traumatic stress disorder. I was fascinated by this technology 
and the research going on with it and its potential to help our 
veterans.
    My district as so many others are home to so many research 
and technology companies on the forefront of technological 
innovation, so I am particularly pleased, also with a large 
veterans' population, to chair this hearing today to profile 
technologies to help our dedicated veterans who have served our 
nation. By shining a spotlight on cutting-edge technologies 
designed to help combat-injured veterans, the Science Committee 
can help spread the word about the wonderful efforts in which 
our witnesses are engaged, and their impact on the lives of our 
brave men and women whose sacrifices deserve our care and 
attention.
    I also look forward to hearing more about the joint 
Department of Energy and Department of Veterans Affairs 
collaboration that will leverage DOE's high-performance 
computing and machine learning capabilities to analyze health 
records of more than 20 million veterans maintained by the VA. 
The goal of this partnership is to arm the VA with data it can 
use to potentially improve health care offered to veterans by 
developing new treatments and preventive strategies. This win-
win enterprise could revolutionize quality of health care for 
veterans, while simultaneously providing Department of Energy 
with unique insight and information to support development of 
next-generation technologies.
    We also have representing SoldierStrong Mr. Meek, who will 
describe the SoldierSuit and his efforts to purchase and donate 
this transformational robotic exoskeleton device comprised of a 
number of devices. Amazingly, it can help provide paralyzed 
veterans the ability to once again stand, walk, and hug a loved 
one eye-to-eye, a point eloquently emphasized in Ms. 
MacCallum's testimony. And Ms. MacCallum is probably more 
familiar being on the other side, being an interviewer of us, 
is one of our witnesses today, and we really appreciate her 
being here and her work for veterans.
    Now, I mentioned John Wordin, who founded Project Hero ten 
years ago to help veterans and first responders affected by 
injuries including traumatic brain injury and PTSD through the 
programs such as Ride 2 Recovery. While the success of the 
program and the therapeutic benefits of cycling, which is one 
of the main activities that he's engaged in with the Ride 2 
Recovery have benefited thousands of veterans, but I also 
appreciate the opportunity to highlight today how the HEROTrak 
monitoring system can benefit veterans with PTSD, including how 
it can help generate more data on best practices to improve the 
lives of veterans.
    And since we did get together with Mr. Wordin with a 
veterans roundtable in my district yesterday, I can just tell 
you, and I know this will apply to all of the others testifying 
today, how excited our veterans' services organizations were to 
hear about these new technologies and how we can partner with 
them. For example, we have a lot of equine therapy groups that 
service veterans in my district, and they understood how when 
we can get more data here, they can now demonstrate how 
impactful the equine therapy is for our veterans. They know 
that instinctively but now we have a way of demonstrating that 
through data.
    And I also welcome Dr. Major, who will describe his very 
important research on motor control related to veterans and 
service members' prosthetics and orthotics and the underlying 
factors of falls.
    An added important benefit of today's hearing is that the 
technologies, research and federal programs we will hear about 
have promising implications for the population at large.
    I thank all our witnesses for joining us today, and for 
your service and efforts to help improve the lives of our 
nation's veterans.
    [The prepared statement of Chairwoman Comstock follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairwoman Comstock. I now recognize the Ranking Member of 
Research and Technology Subcommittee, the gentleman from 
Illinois, Mr. Lipinski, for his opening statement.
    Mr. Lipinski. Thank you, Chairwoman Comstock. Thank you for 
holding today's hearing. I was just looking up Honor Ride on my 
iPad here seeing when one in Chicago is, so it's good to have 
you, Mr. Wordin.
    We're only six days away from Memorial Day, and it's the 
busiest day of the year for me for public events in my district 
because of the importance my constituents and I place on 
honoring the men and women who serve in our armed forces.
    I'm sure my colleagues on both sides of the aisle in the 
subcommittees present here this morning agree that supporting 
technologies that improve the lives of these men and women 
should be a high priority.
    Unfortunately, many face an uphill battle to overcome the 
physical and mental toll of war once they return home. That's 
why this hearing is so important.
    I want to thank our witnesses for being here to share with 
us their efforts to provide veterans with the latest 
technologies to improve their quality of life for our veterans.
    Almost 20 million U.S. veterans are living today and just 
under half are enrolled in the Department of Veterans Affairs' 
healthcare system. The health records generated from decades of 
care provide a trove of information that may lead to more 
accurate diagnosis and treatment of certain conditions and 
diseases. High-performance computing can help analyze this 
massive amount of data to make it useful for delivering better 
healthcare outcomes not only for veterans but also for the 
general population.
    The federal government has made strategic investments over 
the years to advance data analytics and data science research 
and development. I look forward to hearing from Dr. Kusnezov 
about the progress of the Big Data Science Initiative being 
conducted by the VA and Department of Energy, some of which is 
taking place in my district at Argonne National Laboratory's 
Leadership Computing Facility.
    I'd also like to hear about the privacy and security 
measures the agencies are taking to protect our veterans' 
personal information.
    In addition to the diseases and chronic conditions that the 
VA-DOE collaboration will address, veterans who survive combat 
may have to adapt to civilian life with limited mobility due to 
physical injuries sustained in war. A number of federal efforts 
support research in related areas, including advanced robotic 
prosthetics and full-body exoskeleton suits. For example, the 
National Science Foundation funds work examining the interface 
of brain and machine for mind control of robotic prosthetics, 
and the National Institute of Standards and Technology has 
established an international committee to bring together public 
and private sector stakeholders to define standards for 
wearable robotics.
    While the physical wounds of war can be seen, the mental 
scars are below the surface. Combat and other traumatizing 
experiences may result in long-term damage for veterans. 
Homelessness and suicide may be manifestations of these mental 
wounds. Eleven to 20 percent of veterans from the most recent 
combat operations suffer from post-traumatic stress disorder, 
or PTSD. These figures are similar for Gulf War veterans, and, 
unfortunately, even greater, 30 percent, for Vietnam veterans.
    I look forward to the witnesses' testimony about their 
efforts to provide physical and mental rehabilitation 
technologies to our deserving veterans who have already 
sacrificed so much for our nation. I also look forward to 
hearing the witnesses' ideas about what more the federal 
science agencies can be doing to accelerate the development of 
such technologies.
    Thank you, Madam Chair. I look forward to hearing the 
testimony, and I yield back.
    [The prepared statement of Mr. Lipinski follows:]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       
    Chairwoman Comstock. Thank you, and I now recognize the 
Chair of the Committee, Mr. Smith.
    Chairman Smith. Thank you, Chairwoman Comstock, for holding 
such an interesting and important hearing today.
    Today's hearing will highlight some fascinating 
technologies and efforts that will empower veterans.
    The Titan supercomputer at Oak Ridge National Laboratory 
can process a quadrillion calculations per second. That's a 
number followed by 15 zeros. Thanks to collaboration between 
the Department of Energy and the Department of Veterans 
Affairs, this computer will be used to analyze the health 
records of 24 million veterans in order to provide improved 
care. The partnership between the VA and DOE could transform 
the delivery of healthcare to our veterans as we use complex 
computer models to learn more about the causes and warning 
signs of various diseases.
    The VA has identified three priority areas of focus for 
early delivery impacts: suicide prevention, prostate cancer, 
and cardiovascular disease. By providing DOE with access to a 
large-scale database, the VA will help the Energy Department 
develop next-generation algorithms and modeling capability 
while ultimately providing the VA with data it can use to 
improve veterans' quality of life.
    One of the witnesses today, Mr. John Wordin, is 
collaborating with a Texas A&M University professor on a 
wearable device to help veterans suffering from post-traumatic 
stress disorder, and we also welcome Dr. Farzan Sasangohar, 
Assistant Professor in the Department of Industrial and Systems 
Engineering at A&M. Thank you and your team in Texas for your 
hard work and efforts to support our veterans.
    I would also like to thank Mr. Chris Meek and Ms. Martha 
MacCallum for their respective efforts on behalf of 
SoldierStrong. In January, SoldierStrong donated a robotic 
exoskeleton to the Audie Murphy Memorial VA Hospital in San 
Antonio, which I represent. This donation will help the 
facility provide state-of-the-art rehabilitative care to 
veterans.
    One of the benefits of hearing from the experts today is 
that the fruits of their labor are not limited to helping 
veterans, although they do that so well. They can be applied to 
people all over the country and the world who suffer from 
similar ailments or injuries.
    In addition to this hearing, the Science Committee approved 
legislation last November to help veterans overcome obstacles 
as they reenter the workforce. H.R. 4323, the Supporting 
Veterans in STEM Careers Act, was introduced by Representative 
Neal Dunn of Florida, a member of the Science Committee. The 
bill promotes veterans' involvement in STEM education, computer 
science, and scientific research and employment. It passed the 
House in December and awaits action in the Senate.
    To me, the subject of the hearing shows yet again how 
technology can meet the world's challenges, and we look forward 
to our witnesses' testimony today and to finding out more about 
how that technology can help not just veterans but, as I said, 
people around the world.
    Thank you, Madam Chair, and yield back.
    [The prepared statement of Chairman Smith follows:]
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         
    Chairwoman Comstock. And I now recognize the Ranking 
Member, Ms. Johnson.
    Ms. Johnson. Thank you very much, Chairwoman Comstock and 
Ranking Member Lipinski for holding this hearing to learn more 
about technologies that are being developed to help improve the 
quality of life for our injured veterans.
    This is a topic close to my own heart. Before I ran for 
political office, I served as the chief psychiatric nurse at 
the VA Hospital in Dallas where I actually helped to start that 
service. I saw up close the toll that serving in a combat zone 
can take on our men and women in uniform. I developed a deep 
appreciation for human frailty and strength alike, and I 
carried those lessons forward into my political career.
    I regularly meet with veterans in my district in Dallas to 
learn about the challenges they face reentering civilian life 
and to discuss what the veterans--what the federal government 
can be doing better to help ease their transition.
    Today there are about 20 million veterans in the United 
States. Advances in medical response and technology in the 
battlefield have meant that more veterans are surviving and 
returning home with traumatic injuries that meant certain death 
in earlier generations.
    The protracted conflicts in Iraq and Afghanistan resulted 
in many of our veterans serving multiple deployments in combat 
zones. Even if they survived these deployments without any 
visible injuries, some almost certainly suffer in other ways. 
Veterans experience mental health disorders, substance use 
disorders, post-traumatic stress, and traumatic brain injury at 
a disproportionate rate compared to their civilian 
counterparts. Eighteen to 22 American veterans commit suicide 
daily. Younger veterans are at the highest risk. While an exact 
count is hard to come by, approximately 40,000 veterans today 
are homeless. These are statistics that should alarm us all.
    Technology will not solve all of these challenges. However, 
technology can go a long way to aid veterans suffering from 
both physical injuries and mental health disorders. Continued 
advancements in prosthetics and exoskeletons will help improve 
the quality of life for veterans who have lost limbs. More 
accurate and wearable predictors of PTSD attacks will help 
veterans keep themselves and their loved ones safe, and better 
understanding of the range of conditions that occur in the 
veteran population will help medical professionals and 
policymakers alike develop more effective interventions.
    I look forward to hearing more about the technologies that 
today's witnesses are working on, and I look forward to a 
discussion of the role that our science agencies such as the 
National Science Foundation and the National Institute of 
Standards and Technology can play in advancing these and other 
technologies to aid our U.S. veterans. Our veterans deserve 
nothing less from our nation and our government than our full 
dedication to helping them repair the wounds of war that they 
suffered on our behalf.
    I thank you and yield back.
    [The prepared statement of Ms. Johnson follows:]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         
    Chairwoman Comstock. Thank you, and I'm now going to 
introduce our witnesses but before I do, I did want to 
recognize Steve Jordan of the Northern Virginia Technology 
Council, who has worked for the Veterans Employment Initiative, 
which has been an initiative of our technology companies in 
northern Virginia, which has just done wonderful work with our 
veterans, and I really appreciate having you here today, Steve, 
to hear about these great technologies, and both private and 
public investment, which I know NVTC has already been great 
with public-private partnerships. So thank you.
    Okay. Now, first our first witness today is Dr. Dimitri 
Kusnezov, Chief Scientist at the National Nuclear Security 
Administration at the U.S. Department of Energy. Prior to NNSA, 
he served as Director of the Office of Research and Development 
for National Security Science and Technology. Dr. Kusnezov 
earned a bachelor of arts in both physics and pure mathematics 
from the University of California at Berkeley. He also holds a 
Master of Science in physics as well as a Ph.D. in theoretical 
nuclear physics, both from Princeton University.
    Our second witness today is Mr. Christopher Meek, Founder 
and Chairman of SoldierStrong. SoldierStrong helps America's 
servicemen, -women, and veterans take their next steps forward 
by identifying and filling gaps in the traditional systems 
supporting veterans and members of the military. Originally 
called SoldierSocks, SoldierStrong stems from Mr. Meek's first 
project organizing donations of socks and other supplies from 
communities and businesses. Mr. Meek holds a Bachelor of Arts 
in economics and political science from Syracuse University and 
a Master of Business Administration and financial management 
from Pace University in New York City.
    Our third witness today is Ms. Martha MacCallum, Advisory 
Board Member of SoldierStrong. She's here in that capacity 
today. Of course, we also know her as a Fox News anchor, where 
she has highlighted numerous military achievements on her show, 
The Story with Martha MacCallum. Ms. MacCallum's coverage has 
included the accomplishments and personal stories of the Green 
Berets, Navy SEALs, and medal winners for extreme bravery in 
Afghanistan. She earned her bachelor's degree in political 
science from St. Lawrence University. She also studied at the 
Circle and the Square Theater School.
    Mr. John Wordin, our fourth witness, is President and 
Founder of Project Hero. His work to improve suicide prevention 
and help veterans and first responders has earned him national 
recognition. He began his career as a professional cyclist, 
participating in three U.S. Olympic Trials and earning a bronze 
medal in the 1989 U.S. National Championships. Mr. Wordin was 
also President and Founder of the Fitness Challenge Foundation, 
which was the genesis of Ride 2 Recovery founded in 2008. Mr. 
Wordin holds a Bachelor of Science in finance from California 
State University at Northridge.
    And I did want to mention, someone just told me that the 
Vice President tweeted about the hearing this morning. I know 
when we first met, you had started your Ride 2 Recovery at the 
Vice President's house, so I guess he's watching to catch up on 
this too, so thank you again for joining us today.
    Our final witness is Dr. Matthew Major, Research Health 
Scientist and Assistant Professor of Physical Medicine and 
Rehabilitation at Northwestern University. Dr. Major's research 
focuses on improving mobility and function of veterans with 
neurological and musculoskeletal pathology through 
rehabilitation technology and therapeutic intervention. He 
holds Bachelor of Science and Master of Science degrees in 
mechanical engineering from the University of Illinois at 
Urbana-Champaign as well as a Ph.D. in biomedical engineering 
from the University of Salford-Manchester in the United 
Kingdom.
    So I now recognize Dr. Kusnezov for his five minutes to 
present his testimony.

               TESTIMONY OF DR. DIMITRI KUSNEZOV,

                        CHIEF SCIENTIST,

           NATIONAL NUCLEAR SECURITY ADMINISTRATION,

                   U.S. DEPARTMENT OF ENERGY

    Dr. Kusnezov. Thank you, Chairman Smith, Ranking Member 
Johnson, Chairwoman Comstock, Chairman Weber, Ranking Member 
Lipinski, and Ranking Member Veasey and distinguished Members 
of the Subcommittee on Research and Technology and the 
Subcommittee on Energy. I thank you for taking up this 
important issue and for the opportunity to address the members 
and share what the Department of Energy in collaboration with 
the Department of Veterans Affairs is trying to do at the 
intersection of next-generation artificial intelligence, 
supercomputing, U.S. innovation, and veterans' health.
    At the Department of Energy, driven by where our missions 
are heading, we work at the forefront of technologies, and 
today we are embracing artificial intelligence. This coincides 
with diminishing returns from Moore's Law, where squeezing the 
most of our 70-year supercomputing paradigm remains important.
    This post-Moore's Law era necessitates novel artificial 
intelligence, or AI, inspired architectures to navigate an 
increasingly data-driven world. I believe that a cornerstone 
for progress will be how rapidly we embrace a next generation 
of AI-enabled predictive supercomputing tools.
    Precision medicine data can accelerate this technology 
change by driving the development with likely the world's most 
complex data. This brings with us subject-matter experts and 
unique opportunities to rethink many of our traditional 
approaches from post-Moore's Law hybrid architectures to 
uncertainty quantification to computer codes.
    Our work with the VA is underpinned by several 
opportunities for innovation that were captured in the 21st 
Century Cures Act, the Cancer Moonshot in 2016, and the 
National Strategic Computing Initiative in 2015. More recently, 
Secretary Perry's commitment to technology in the service of 
veterans as well as this Administration's commitment to 
veterans' issues has allowed the rethinking of traditional 
paradigms and facilitated novel approaches on how to solve 
complex problems.
    The VA has a unique dataset of medical records, whole 
genomes and imaging data that is one of the most comprehensive 
in dimensions of time, scale, and breadth, and in many aspects, 
this dataset is considered to be the largest and most 
comprehensive in the world. Both the VA and the Department of 
Energy are alert to the unique privacy and security 
sensitivities of the veterans' health data.
    Today, our artificial intelligence-driven Big Data Science 
Initiative includes MVP-CHAMPION and a complementary effort 
called ACTIVE.
    Last year in April, VA and DOE scientists, physicians, and 
leadership came together to develop technical roadmaps for 
driving high-performance computing and artificial intelligence 
while developing solutions to priority issues and caring for 
our veterans. VA priorities that were identified that could 
deliver early impacts were patient-specific analysis for 
suicide prevention, helping doctors make decisions around 
prostate cancer, and enhanced prediction and diagnosis of 
cardiovascular disease. Since then, additional areas of 
interest from polypharmacy to traumatic brain injury have 
surfaced. The fiscal year 2019 VA budget request includes $27 
million to support these initiatives.
    We recognize the critical role of the private sector in 
this effort. Recently the VA and DOE held a meeting with 
technology startups focused on precision medicine to understand 
the direction of the technology in the commercial sector. As 
with the Human Genome Project or the exascale initiative today, 
partnerships with labs, academia, and the private sector are 
important. A concerted effort here will lead to innovation tied 
to design and development of DOE's next-generating 
supercomputing that will merge big data, artificial 
intelligence, and high-performance computing; to better 
healthcare via our strategy for precision medicine through 
supercomputing and artificial intelligence that could inform 
when and how to treat our veterans to improve outcomes and 
control costs; to better science via a cadre of researchers and 
clinicians who specialize in healthcare with DOE experts in big 
data, AI, and high-performance computing; and to better 
government via interagency collaborations bringing to bear the 
full capabilities and expertise within public and private 
partnerships.
    Thank you, and I look forward to answering your questions.
    [The prepared statement of Dr. Kusnezov follows:]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Chairwoman Comstock. Thank you, and we now recognize Dr. 
Meek for his testimony.

               TESTIMONY OF MR. CHRISTOPHER MEEK,

                     FOUNDER AND CHAIRMAN,

                         SOLDIERSTRONG

    Mr. Meek. Chairwoman Comstock and Ranking Member Lipinski 
of the Subcommittee on Research and Technology, Chairman Weber 
and Ranking Member Johnson of the Subcommittee on Energy, and 
members of both Subcommittees, thank you for having me here 
today.
    On September 11, 2001, I was running floor trading 
operations for Goldman Sachs at Ground Zero in New York City. 
As I watched the first responders running into the carnage of 
that day, I resolved to do something to give back to those who 
serve. I'm still a financial services executive, now at S&P 
Global, but in the years since that day, my passion project has 
become SoldierStrong.
    SoldierStrong is a 501(c)(3) charitable organization 
committed to improving the lives of our servicemen, women and 
veterans. I chair the organization, and accomplish most of its 
work from a cell phone and an iPad on my daily commute to New 
York.
    SoldierStrong's work started with a request from a forward 
operating base in Afghanistan to send basic supplies like tube 
socks and baby wipes for our forward deployed troops. Over the 
years, we assembled and sent over 75,000 pounds of supplies to 
73 units in Iraq and Afghanistan.
    As the wars wound down, we contemplated closing down until 
one of our board members asked whether the troops we had served 
had everything they needed when they came back home and began 
life anew as veterans.
    In retrospect, one day in particular would bring this 
question into focus for me. April 27, 2011, was my daughter's 
fifth birthday. We celebrated, like many families, with cake 
and ice cream and without a care in the world. Six thousand 
eight hundred miles away, Army Sergeant Dan Rose was being 
medevac'd from the battle field to Kandahar. The vehicle he was 
in had hit an IED, and his injuries would rob him of the 
ability to walk again. Dan's experience that day was a personal 
reminder of how much we owe our veterans, and how their 
sacrifices allow all of us to take for granted the lives we're 
blessed to live here. Two years after his injury, Dan would 
become the first recipient of our SoldierSuit, empowering him 
to walk once again.
    Today, SoldierStrong finds the most advanced mobility 
devices and prosthetics on the market and makes them available 
to injured veterans who otherwise would not have access to 
them. The collection of devices we currently fund comprise the 
SoldierSuit, which covers full-body, upper-body, and lower-body 
mobility devices. One example is the Ekso Suit, which allows 
paralyzed veterans to stand and walk again with robotic 
assistance.
    The physical and psychological impacts of being able to get 
up out of a wheelchair and stand at eye level with the world 
again are profound. In fact, we are partnering with the Denver 
VA to conduct a formal study on the mental health impacts of 
access to this technology.
    Another example is the Luke Arm, which is the first and 
only prosthetic arm that replaces the full range of motion from 
the shoulder, through the elbow, to the wrist to the fingers 
and the hand. It is the first arm that works just like the 
original equipment.
    As with many advanced technologies, these devices tend to 
be extremely expensive, with our average device costing nearly 
$100,000. Two of our more capable devices cost nearly $200,000 
per each.
    We've learned over the years that most of these devices 
were first evolved for frontline servicemen and -women via 
DARPA.
    America's commitment to putting cutting-edge technology on 
our warfighters is exceptional, is a point of national pride, 
and should extend, but currently does not, to our veterans who 
bear the physical consequences of service to our country. We 
work closely with more than a dozen VA medical centers around 
the country which have received one or more of our devices. The 
people of the VA care very deeply about our veterans, but are 
sometimes held back by arcane regulations that have not kept 
pace with modern technological advancement. Thanks to 
SoldierStrong, nearly 25,000 veterans have access to one of 
these devices. We believe every injured veteran has earned the 
right to the best technology American ingenuity can provide.
    Yet one of the tragedies of the post-9/11 veteran care is 
that too many veterans must rely on charitable organizations 
like ours for the access to the medical help they need.
    Though it sounds like science fiction, it really hits you 
that these capabilities are quite real when you see a veteran 
roll into a room in a wheelchair, but stand for the first time 
in years and actually walk back out of that same room.
    I have with me a short video showing how this technology 
works. This video was made during one of our device donations 
to the Richmond VA.
    Madam Chair, Mr. Chairman, the video concludes my remarks 
today. I look forward to answering questions from the 
Subcommittee. Thank you.
    [Video Playback]
    [The prepared statement of Mr. Meek follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. Thank you.
    I now recognize Ms. MacCallum.

               TESTIMONY OF MS. MARTHA MACCALLUM,

                     ADVISORY BOARD MEMBER,

                         SOLDIERSTRONG

    Ms. MacCallum. Chairman Comstock, Chairman Smith, Ranking 
Member Lipinski, and Ranking Member Johnson, Members of the 
Committee, thank you so much for having me here today.
    In my work, I am fortunate to speak with generals, military 
leaders, and Pentagon officials, Navy SEALs and Green Berets as 
well as many other great men and women who serve or have served 
our country. In fact, yesterday I spoke with Vice President 
Pence, who was very interested in the subject matter of our 
discussion here today, and in particular the work of Mr. Wordin 
and also the work of SoldierStrong and the U.S. technology that 
can grow and benefit our veterans and other members of society.
    Like most of us, as a citizen, I am enormously grateful to 
them for their service and humbled by their sacrifice, knowing 
that as much as I love my country, I could never live up to the 
measure of their bravery and heroism. Like most of us, I want 
to show my gratitude to those who put their lives on the line, 
those who make the sacrifices, who face the danger, who go to 
the frontlines to protect us, and the freedom that we cherish 
as Americans.
    SoldierStrong was born out of 9/11 out of Chris Meek's 
desire to prove to our patriots that we are forever thankful, 
that what we can do as citizens and as a country--through what 
we do as citizens and as a country is to make sure that we are 
willing to move forward in combat and that they will now be 
able to move forward in life. Whatever they lost on the 
battlefield or in injuries after they've served, we can help 
them overcome to the greatest of our ability.
    9/11 was a day that changed us forever. As a lifelong New 
York/New Jersey resident, I watched the Towers come down, and 
with them, the lives of people I knew: the families of those 
who were lost, 13 fathers and one mother from my hometown. I 
vowed that day to tell the story of the war on terror and the 
battles that continue, and to support those who heard the call 
of President Bush when he said, ``the people who knocked these 
buildings down will hear from all of us soon.'' The men and 
women of our armed forces made that message heard loud and 
clear. Some paid the ultimate price carrying that message to 
our enemies.
    So when Chris Meek came to see me about the organization 
that he had started with the simple mission of sending basic 
supplies to our troops to show them we cared and how that 
mission evolved into opening up a world of possibility for our 
injured patriots when they came back home, I was in. I joined 
the Advisory Board in 2014 and have been dedicated to using my 
voice and the platform that I have through my work to raise 
awareness and support and to spread the word about the cutting-
edge technologies emerging in this field and the life-changing 
impact they could have for those to whom I owe so much.
    The response has been incredible. I believe our viewers and 
Americans across this country want better for our veterans, 
better than a system that leaves gaps and does not allow them 
to the ingenuity of these new devices.
    I will never forget the day that Sergeant Dan Rose came to 
our studio to demonstrate how his SoldierSuit allowed him to 
get up from his wheelchair and take the steps that he never 
dreamed he would be able to take again. The look on his face 
said it all: will, possibility, and promise.
    As Americans we must make sure that we give back but give 
back in a way that is uniquely American, that relies on this 
cutting-edge technology, and never taking no for an answer. As 
JFK once said about the U.S. space mission, ``We choose to go 
to the Moon not because it is easy, but because it is hard.''
    We live in a time when Ironman is not just a movie. It is 
moment when technology made in America can rebuild arms with 
full mobility and allow bodies with severed spinal cords to 
stand up and walk. Companies like Ekso Bionics, Bionix, Mobius 
Bionix, and Myomo are leading the way.
    But there is still a long way to go, and we will do it, not 
because it is easy, but because it is hard, and because it is 
the right thing to do.
    Embracing this technology is a winner for the United 
States, for our military and for those who will benefit from 
the growth of these industries and the jobs that it creates 
here at home as well. It makes sense on every level.
    Thanks to the work of a very lean and dedicated team, 
SoldierStrong operates on a budget that puts just 9 to 12 
percent towards operating costs. More than 80 percent goes 
directly to bringing this technology to more than 25,000 
veterans at rehab centers and VA facilities across the country 
so far. SoldierStrong has donated more than $2.5 million in 
high-technology medical devices that directly help our injured 
armed forces and $500,000 toward scholarships for those whose 
way forward is through education that opens doors for their 
next steps in their lives.
    I encourage you to think about how the funding that 
supports our fighting forces in the field can be extended to 
support the extraordinary research that's being done with 
taxpayer funding that will ensure that our injured veterans 
have access to the scientific advances that come from it.
    I thank you very much for your time today and look forward 
to your questions.
    [The prepared statement of Ms. MacCallum follows:]
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         
    Chairwoman Comstock. Thank you, and we will now hear from 
Mr. Wordin.

                 TESTIMONY OF MR. JOHN WORDIN,

                     PRESIDENT AND FOUNDER,

                          PROJECT HERO

    Mr. Wordin. Good morning, Chairman Comstock, Chairman 
Weber, and Ranking Members Lipinski and Veasey, and 
distinguished members of the Energy and Research and Technology 
Committee. I'd like to introduce Dr. Farzan Sasangohar, 
Industrial and Systems Engineer at Texas A&M, and we also have 
with us some veterans from the Project Hero Walter Reed hub 
program here today.
    Project Hero is an organization that brings our nation's 
veterans and first responders together through sports, 
activities, and community, helping them overcome challenges 
associated with their visible and invisible wounds.
    Being the catalyst for the adapted sports movement, Project 
Hero continues to be the industry leader. Dedicated research, 
including a Georgetown University study, of Project Hero's 
methods confirms that the work being carried out since its 
inception is changing and improving the lives of tens of 
thousands of veterans, first responders, and their families. 
Remember, the veterans volunteer; the families are drafted.
    Our mission is to save lives by providing hope, recovery, 
and resilience to America's finest. We've had a tremendous 
impact. Sixty-two percent of our program participants reduce or 
eliminate their prescription drug use including opioids and 
antidepressants. PTSD-related stress attacks as measured by the 
HEROTrak are reduced by 83 perfect. The annual Project Hero 
participants saves the VA more than $9,000 including 
prescription drugs and healthcare costs annually.
    A soon-to-be-released report reviewed 3,000 suicides to 
evaluate the cause and effect, and recommend steps to improve 
care to our veterans and provides data to show why 20 veterans 
commit suicide each day. What are the risk factors, diagnoses, 
and family components that are at the root cause of suicide? 
The review found that the diagnoses most common in all suicides 
are depression, PTSD, anxiety, and alcohol use disorder with 
the average suicide having multiple diagnoses. The top risk 
factors are pain, access to firearms, worsening of health 
status, relationship problems, hopelessness and decline in 
physical ability. Most of the suicides were not identified as 
high risk in their medical record. Of the 20 suicides per day, 
only three were receiving VA mental health services at the time 
of their death. The reasons: inconvenience, long wait times, 
paperwork, transportation, and stigma.
    The top recommendation of this report is to come up with an 
enhanced suicide risk assessment and safety planning capability 
that addresses the complex care needs of our veterans, 
utilizing technology, clinician training, and extending more 
into the community. There is a need for a more systematic 
assessment tool that can document risk.
    The HEROTrak initiative solves this vital need for a 
technology-based objective solution for suicide prevention and 
mental health care. Currently, no PTSD tool exists with remote 
capabilities to complement ongoing treatment.
    The HEROTrak will be a FDA-approved device that will allow 
continuous monitoring and detection of PTSD triggers using 
physiological sensors and machine learning algorithms and can 
measure frequency, severity, and duration of a PTSD episode 
within two to four seconds. The HEROTrak is a wearable monitor 
developed by Texas A&M and Dr. Sasangohar and tested 
exclusively at Project Hero events to learn a user's 
physiological cues.
    Our goal will be to prevent and eliminate suicide in 
military, veteran, and first responder population, provide the 
active-duty component with a long-term focus on improving the 
overall readiness of the force by providing better health and 
healthcare analytics, and provide support for survivors of 
sexual trauma and other mental health diagnoses with the care 
they need. The result will be better therapeutic outcomes at 
less cost.
    Using a combination of heart rate and heart rate 
variability monitoring, the PTSD alarm will identify triggers. 
The tool creates a personalized profile that monitors patterns 
and variability to infer a PTSD episode. If an episode is 
detected, an alarm vibration goes off with a visual prompt that 
the user will set up four options of support: self-resilience 
tools; they can connect to a NoVetAlone peer-to-peer network 
that they program into the watch themselves, which can 
including family, friends, or clinicians; it can automatically 
call the VA crisis hotline or 911. The device pairs with a 
smartphone and can interface with a website to offer more 
features including direct connect to peers, military command, 
or clinicians either by phone or video as desired. The user 
will also be able to share information with peers in their 
social network that they wish to create for their own personal 
support system.
    The device can best be utilized when a person first joins 
the active-duty military to create a baseline and then 
constantly and consistently collect data on the mental and 
physical health, report stress events/traumas during their 
service. The advantage is to maintain objective rather than 
subjective data and feedback and integrate this information 
into one's electronic medical records.
    This biometric collective data can then provide a medical 
clinician with the complete mental and physical health picture 
whenever the participant visits their healthcare provider, 
thereby understanding whether the prescription drugs they've 
been using are actually working or whether the care path that 
they've been put on by their VA or active-duty clinician is 
actually working. The overall advantage is a more 
comprehensive, objective measurement of their disability 
metrics that will lead to increased abilities and a better care 
continuum.
    For the patient, it's a creative way for them to have--for 
them and their family to understand the environment and 
surroundings that cause stress episodes in their life. They can 
look back at the minute, the five minutes, the 30 minutes prior 
to a PTSD episode and understand what was the trigger.
    Up on the screen, we have some of the screenshots of the 
app that the device pairs with so you can see your data. On 
here you can see your heart rate, your resting heart rate, your 
physical activity, the number of stress events, and your--and 
also your tools.
    They will be provided accurate information on the mental 
and physical state of mind. It will be a patient-centered 
design that provides a 24/7 support network with medical, 
resiliency and peer-to-peer support if you have a PTSD episode. 
It's GPS-enabled so if you become disoriented or pass out, the 
person who's been alerted to your PTSD episode will be able to 
know exactly where you are. Peer-to-peer support can provide 
motivation, feedback, and the support of knowing that you are 
not alone.
    For the clinicians, it provides a complete mental and 
physical healthcare picture of their patients, a more 
comprehensive measurement with disability metrics, which lead 
to increased abilities and provide a more informed care 
continuum. Up on the screen we have actual data that was driven 
from one of our testing where you can see how a PTSD episode 
would look to a clinician. It starts out during sleep, and then 
you can see the spike in their heart rate that causes the alarm 
to go off, and it also knows the difference between physical 
activity and an actual episode.
    For the DOD, it creates a baseline that consistently and 
constantly collects data on their mental and physical health so 
that they can know the readiness of their troops before going 
on deployment. It maintains objective data and feedback on the 
overall readiness of the force, and that information could be 
integrated into their electronic medical records.
    The most important need we have right now as a nation is to 
prevent more suicides and improve the mental health of those 
who serve our country. Although the conflicts may be winding 
down, there is a lifelong commitment we owe to these men and 
women. The HEROTrak is vital to that commitment to assure that 
they can see their children grow up in a supportive community.
    We all understand the need to reduce suicide and improve 
mental health for veterans that live and work in each of our 
districts. There are veterans in your district right now that 
can be saved by utilizing the HEROTrak.
    Thank you very much for your time.
    [The prepared statement of Mr. Wordin follows:]
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Chairwoman Comstock. And we'll now hear from Dr. Major.

               TESTIMONY OF DR. MATTHEW J. MAJOR,

                   RESEARCH HEALTH SCIENTIST

                   AND ASSISTANT PROFESSOR OF

             PHYSICAL MEDICINE AND REHABILITATION,

                    NORTHWESTERN UNIVERSITY

    Dr. Major. Thank you. I'd first like to thank Chairman 
Barbara Comstock, Ranking Member Daniel Lipinski, Chairman 
Randy Weber, and Ranking Member Marc Veasey for the invitation 
to testify. I also want to recognize Chairman Smith and Ranking 
Member Johnson for joining us this morning.
    There exists a large and growing number of veterans with 
neurological or musculoskeletal pathology who rely on VA 
rehabilitative care for functional restoration. When medically 
indicated, an inter disciplinary clinical team delivers custom 
prostheses or orthoses and implements therapies to train 
veterans on how to use these devices effectively and ensure 
long-term rehabilitation success.
    I currently conduct studies on the factors that underlie 
balance and fall risk in persons with upper and lower limb 
loss. We do not yet fully understand why nearly 50 percent of 
community living persons with limb loss fall at least once per 
year, many of whom experience a fall-related injury.
    This has considerable implications to veteran qualify of 
life and VA healthcare costs. My studies aim to identify 
factors that are useful for fall risk screening and modifiable 
through balance targeted interventions. Uniquely, these studies 
utilize technologies for assessing how prosthesis users respond 
to walking disturbances. Moreover, these platforms can deliver 
therapies to train users on how to manage disturbances and 
avoid falls.
    I'll provide two examples. In this first example, we use a 
robot that applies a controlled pull to the pelvis through a 
system of motors and cables. We're interested in the lessons 
that can be learned from the unique strategies of the 
individuals you see here.
    In the second example, we see use of an interactive system, 
which provides both virtual and augmented reality as a means to 
deliver walking disturbances. This system is used to deliver 
physical training that requires controlled movements and is 
combined with cognitive behavioral therapy as part of a 
holistic treatment.
    The remaining projects focus on development and evaluation 
of prosthetic devices. We're addressing the unique prosthetic 
needs of women with limb loss and developing prostheses that 
can accommodate changes in footwear. We're also developing a 
new method to deliver personalized prosthetic feet and knees 
based on an individual's body structure and activity level.
    Finally, we're designing technology to suspend prostheses 
from the amputated limb using vacuum suction to improve 
mobility and limb health.
    While prosthetic and orthotic technology is advancing 
rapidly due to progress in robotics and material science, the 
most critical aspect to successful rehabilitation are the 
veterans using these devices. Research and development has 
granted us the ability to empower veterans with functional 
impairments but understanding how veterans interact with this 
technology is crucial. Therefore, we should support parallel 
research efforts on development of technology and its clinical 
application. The success of the rehabilitation process is 
dependent on clinicians' use of evidence-based practice, which 
is generated from quality clinical research that considers the 
holistic needs of patients.
    Furthermore, veteran rehabilitation does not end once they 
are fitted with a device and deployed into the community. Real-
world use of this technology provides a window into 
rehabilitation progress and quality of life. Advances in 
wearable sensors have improved our ability to collect data on 
community-based outcomes such as activity level and 
participation. Research is needed to explore ways in which we 
can best integrate sensors into devices to monitor user status 
with minimal interruption to daily living. We also need to 
examine how these data can guide device designs and 
rehabilitation strategies to better support independent 
function.
    Overall, veteran rehabilitation research must continue to 
be interdisciplinary to accelerate its progress, integrating 
science from engineering and medicine. I argue that we still 
lack a thorough understanding of the interaction between the 
human element and rehabilitation technology. More research is 
needed to better understand: A, how the body responds to 
different prosthetic and orthotic designs; B, which therapies 
are most effective; and C, what the long-term outcomes of 
rehabilitation are on veteran health and quality of life. 
Filling these gaps will improve personalized rehabilitation 
interventions and help close the loop between technology and 
clinical practice.
    Ultimately, I believe that technology is driving us towards 
a future where we can fine-tune rehabilitation interventions 
with extreme precision, accuracy, and speed. Devices and 
therapies will be personalized based on individual patient 
characteristics and smart prostheses and orthoses will collect 
diagnostic data through onboard sensors. Clinicians will use 
these data to monitor rehabilitation progress and design 
interventions while the devices themselves will automatically 
adjust in real time to meet the demands of daily activity. 
Combined with advances in telehealth, therapies will be 
administered remotely without traveling to a clinic and thereby 
improving access to care.
    Real-time monitoring and remote intervention delivery will 
promote rehabilitation of veterans while permitting continued 
community engagement. Our end goal is to restore the greatest 
level of independence, ambulation, and quality of life to 
veterans which reflects a main priority of the VHA.
    I once again thank the Research and Technology Subcommittee 
and the Energy Subcommittee for this opportunity to testify, 
and I'm looking forward to the discussion. Thanks.
    [The prepared statement of Dr. Major follows:]
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairwoman Comstock. Great. Thank you all so much. What 
inspiring work you're all doing, and the innovation is really 
exciting.
    So I kind of picking up from when we had our veterans' 
roundtable yesterday, one of the things was how we can 
integrate these services. First of all, Mr. Wordin, and then I 
wanted to kind of ask everyone this question, what three things 
can we do, and maybe give us some action items for each of you 
to get what you're working on advanced and out to more of our 
veterans.
    Mr. Wordin. Well, the first thing is easy. It's funding. I 
mean, the technology groups I think in all the speeches talked 
about funding and the need for more technology for technology 
because it has such a--it'll have such a large impact. I mean, 
we talked yesterday in the forum about how, for example, people 
are trying to justify or understand how valuable equine therapy 
is. Well, if every participant was wearing a HEROTrak device, 
you'd be able to tell immediately the overall mental and 
physical impact that that therapy was having on that particular 
person, and so then you can make better informed decisions as 
both a patient, as a clinician, as a Congress on where to 
appropriate and prioritize that funding.
    Technology will continue to evolve, and I would say that's 
the second issue is as technology evolves, particularly our 
device will become even more powerful. As phones become more 
powerful, as the wearable technology becomes more powerful, 
battery life improves, the reliability of the algorithm 
improves, the device will become even more efficient and even 
more valuable.
    And then the third thing is just being able to work within 
the VA system, which I think is the biggest source of 
frustration for veterans. In that study that was quoted where 
they talked about inconvenience, long wait times, paperwork, 
transportation and stigma, you know, the VA has its challenges 
and--but also the way that VA treats nonprofits, outside groups 
and how can we interact with them is very, very complicated. I 
mean, we're lucky. We're one of the few--we were the first with 
Secretary Shulkin to be an authorized mental health and suicide 
prevention program of the VA, but even with that official 
designation, we still have a hard time working with individual 
VA Medical Centers. And so how can we fix--I don't even know if 
fix is the right word but how can we make it so that while it's 
a lot easier to deal with active-duty component with DOD, it's 
very, very complicated with the VA, and it's still the federal 
government. There's still supposed to be one rulebook.
    Chairwoman Comstock. And Ms. MacCallum and Mr. Meek, what 
has been your experience in working with the VA and how can we 
help advance--and obviously I think we all agree getting more 
funding directed to this but how can we integrate better?
    Ms. MacCallum. Just looking at the VA request for 2019, 
$198 billion, $727 million of that request is for medical 
prosthetic research. So funding is clearly one of the big 
issues. And when I think about SoldierStrong, there's 170 VA 
Medical Centers in the country--and this goes to what Mr. 
Wordin was saying--we have devices in 12 of them so far. So the 
issue of scale and scaling up so that these devices are more 
available to veterans across the country is clearly one of the 
big goals here, and then, you know, in terms of what I do, I 
just think communication and helping people to understand 
across the country what our veterans go through when they get 
home. I mean, I think that's a message that we need to continue 
to spread and that's something that, you know, I would like to 
see more news organizations spend more time on, and that's an 
effort that I would make.
    You know, I look at one of the quotes from one of the 
veterans that we've spoken to. He said, you know, you feel like 
a burden and you avoid social situations, so that alone is such 
a hampering factor to moving forward. So we want to find a way 
to, you know, help veterans feel, especially when they're using 
these devices, that they're not in the way, that they're 
normal, that they're part of society, and I think raising 
awareness through great communication is something that will go 
a long way to that.
    Chairwoman Comstock. Thank you.
    Mr. Meek. I think I'd agree with Mr. Wordin. I think the 
two things that you can do are first to pass legislation making 
this technology available to all veterans, and more importantly 
is funding the appropriations. It's one thing to pass a bill, 
but if you can't pay for it, it's not going to do anybody any 
good.
    You know, there's several great organizations up here all 
doing some great things, but at the end of the day, we're all 
fighting for the same private sector, private donor dollar. 
There's only so much of that out there, and so getting help 
from people like yourself and this Committee will really help 
transform the lives of those veterans who need it.
    Chairwoman Comstock. And I think one of the things I think 
you've all demonstrated in testifying, when these devices and 
these things are made available, it's lowering PTSD, it 
improves lives, and we actually do have long-term savings here 
as well as obviously improved quality of life and the right 
thing to do, so there is a win-win result from this.
    Mr. Meek. Well, and as you mentioned before, a lot of these 
devices were originally funded through DARPA, and what we're 
finding now is that there's no DARPA for veterans when they 
come back home, and so that's why I think organizations like 
ours are trying to backfill here is to step up and fill that 
void.
    Chairwoman Comstock. Thank you very much. I see my time is 
up.
    I now recognize Mr. Lipinski.
    Mr. Lipinski. Thank you, and I want to thank all the 
witnesses for their testimony. A lot of interesting work in 
different areas to help our veterans with technology.
    I wanted to start with Dr. Major. You mentioned the 
potential of smart prostheses that can incorporate onboard 
sensors and real-world data to improve rehabilitation progress 
and design interventions. What are the current challenges that 
the field faces in achieving the goal of smart prostheses and 
what federal resources are needed or could be leveraged to 
reach this target?
    Dr. Major. Thank you for the question. Yeah, I think in 
terms of the challenges that we face this early, it's difficult 
actually to find ways to effectively integrate these sensors. I 
mean, there are a lot of sensors that are available. 
Miniaturization of these sensors actually helps provide the 
ability to be able to include them in such devices like these, 
but again, I think what we're lacking is once the sensors are 
actually included is trying to essentially use that mapping 
between the data that is being derived from real-world use and 
what it essentially means and how we should direct that to how 
these devices either interact with the patients, help the user, 
learn from the user, and improve their mobility essentially. So 
I think there's still some gaps that are missing in terms of 
research. A lot of this is essentially basic research in the 
sense that again once the data is available, how do you 
effectively use it, and I think we need to make certain that 
research is being directed in a way that we can answer some of 
those questions to fill those gaps. Because, again, the sensor 
technology has improved dramatically and it's rapidly advancing 
because they're getting smaller and smaller, and our ability to 
include them in devices such as prostheses and orthoses at this 
point is much improved. I don't necessarily think that's one of 
the bigger challenges.
    Powering those devices, powering those sensors, that is a 
challenge of course because they do require onboard battery 
power as well, and obviously in advances in battery power and 
miniaturizing that technology will obviously help in this case, 
but again, research does need to be directed to answer those 
questions on how we use the data effectively, how we can do 
that, collect the data, how clinicians can then use the data 
but at the same time also protecting the privacy of the patient 
because once you have all this data that is streaming in, one 
of the important things obviously is to make sure that patient 
privacy is being considered in that case.
    Mr. Lipinski. Are we training or have we trained the next 
generation of scientists to do this work that's needed that 
reaches across a lot of different areas? Do you think we're 
doing an adequate job of that? Do we need to do more and 
focus--well, do we need to do more there?
    Dr. Major. I'd be hesitant to speak more broadly but in my 
experience, I think we are. I think one of the benefits of this 
type of research is that it is interdisciplinary and we need to 
make sure that it continues to be so, right, because again, it 
is this combination of engineering and medicine but we need to 
start of course integrating other disciplines as well, whether 
that's material science, robotics, psychology, whatever it 
might be, but we need to make sure that we're still promoting 
that type of integrative, interdisciplinary research to make 
sure that we're staying competitive and we're advancing the 
process of this particular science.
    So I think we are doing an excellent job. Of course we can 
always do better, and as long as we continue on this track, I 
think this particular research will remain competitive and 
we'll be able to take the steps that we need to elevate this 
type of technology.
    Mr. Lipinski. Moving on, it's great to see, Mr. Wordin, the 
work that you're doing with HEROTrak, and we still--veteran 
suicide data is inconclusive. We're still trying to understand 
this. What does your--you know, what does HEROTrak really 
provide in that direction and what else more do you think can 
be done to leverage commercial technologies in order to do 
this?
    Mr. Wordin. Well, this report that's about to come out is 
pretty clear on what the root causes and diagnoses of suicide 
are, and when you get into depression, anxiety, hopelessness, 
you know, those are all factors, and what we found in our 
research so far in our testing of the HEROTrak is that veterans 
feel like they have a support system with them 24/7 right on 
their wrist because it can connect to a loved one, a clinician, 
a family member or a peer so that if they have an episode, 
they're able to get help immediately and it's something that 
they direct so they're in control. And so the feedback that 
we've been getting from our focus groups has been really 
remarkable in the acceptance of being able to wear basically a 
technology monitoring device that understands what's going on 
with you mentally and physically. And so that power helps 
alleviate that hopelessness. So if you are feeling depressed, 
you know, hey, if I have an episode, you know, it automatically 
will text-message my buddy from Iraq or my wife or my 
girlfriend or my father or whatever, you know, you particularly 
program in, and that ability really creates that sliver of hope 
that's the difference between suicide and not suicide.
    Mr. Lipinski. Thank you very much. My time is up. A lot of 
things to talk about here but I thank all of you for the work 
that you're doing.
    Chairwoman Comstock. And I now recognize Mr. Weber.
    Mr. Weber. Thank you, Chairwoman.
    Dr. Kusnezov, in your prepared testimony, you talked about 
how the DOE national labs have a history of research 
collaboration and the ability to confront short- and long-term 
complex science challenges. Hold that thought in mind for just 
one second.
    Ms. MacCallum, you said you talked to a vet who felt a 
stigma when trying to interact with----
    Ms. MacCallum. Going out and socializing and being in a 
wheelchair and trying to get around people and feeling that he 
was, quote, in the way.
    Mr. Weber. Perfect. Mr. Wordin, you listed all of the 
causes of suicide, and do you have that list available for us 
where we can get that later? Anxiety, depression. Was stigma 
one of those causes?
    Mr. Wordin. No, but stigma is one of the reasons why they 
don't receive VA medical services.
    Mr. Weber. Okay. Thank you.
    Now, Dr. Kusnezov, back to you. The DOE has a history of 
working with some of those other agencies where you said 
earlier, I think quite frankly, and Mr. Wordin, you said that 
the VA has trouble working with outside groups. Well, I would 
proffer up the point that the Department of Energy does not, 
and they do a lot of good research, so I'm coming back to you, 
Doctor. I've got a point to this dialog here. How does the 
Department and the national labs benefit from performing data 
analytics and computational research on behalf of the VA, and 
then how do we meld this problem together? We'll come back to 
you all later. Go ahead.
    Dr. Kusnezov. Thank you. That's the right question to ask. 
For us, the data with its unique complexity that comes with 
subject-matter experts, that is curated by experts brings with 
us a team of specialists that allows us to attack the 
artificial intelligence and technology challenge with our 
experts. And so the meeting, the intersection happens at that 
place where we look at the priority questions that the Veterans 
Administration to surface. We bring together the technology 
specialists, the hardware, the software, the engineers and ask 
how do we answer those questions.
    Mr. Weber. And many times, those are outside industry and 
groups. Keep going.
    Dr. Kusnezov. Yes. So the nexus is the two agencies coming 
together. We draw from the breadth of the laboratories. We 
engage the private sector and academia as needed. We bring in 
as many people as we can because we recognize it's going to be 
an all-of-the-above type of activity to answer these priority 
areas the Veterans Administration has defined.
    Mr. Weber. So I mean, actually, that's a perfect marriage, 
if you will, in that we have that ability and we're able to do 
that and thereby do away with the stigma, do away with the non-
ability to work with outside groups and to make this as 
seamless as possible. I'm still going to come back to you for 
one more.
    These research partnerships have the potential to 
accelerate scientific breakthroughs and healthcare delivery 
systems and biosciences. Should the Department replicate this 
model in other fields of research, and what steps can we as 
Congress take to facilitate that?
    Dr. Kusnezov. So I think the answer is yes in terms of 
replication. Our focal point right now has been on the 
veterans' health data and on the precision medicine dataset 
because of its unique complexities because it comes with 
annotations, with handwritten notes, with data streams and 
imagery and collections of multimodal data that talks to a 
situation in unique ways that was going to test how we develop 
predictive technologies, artificially intelligent-based 
computing. When we start to get our head around what those 
hardware and software technologies are, these are ones we want 
to apply to other areas but we find that the highest leverage 
opportunity for us is around this dataset because it draws in 
so many other partners who want to come, who want to 
participate, and it's a force multiplier for our activities.
    Mr. Weber. Well, that brings up another question, and so do 
you see any problems with the DOE and the VA working together?
    Dr. Kusnezov. No, not at all. In the beginning of April, 
Secretary Perry and Acting Secretary Wilkie did sign a new MOA 
to work together that we have started to implement now. It 
identifies more data than we already have resident that we plan 
to aggregate so we have a very nice path forward.
    Mr. Weber. What process would you use to report back to 
Congress, in other words, to say, this is working, we're making 
huge steps in the right direction? How do we get that from you?
    Dr. Kusnezov. I think at your discretion, coming to you 
with the VA side by side would be an effective means to do 
that.
    Mr. Weber. Okay. Thank you, Madam Chair. I'm going to yield 
back at this time.
    Chairwoman Comstock. Thank you, and I now recognize Mr. 
Veasey for 5 minutes.
    Mr. Veasey. Thank you, Madam Chair.
    I wanted to ask a couple questions on data privacy and 
cybersecurity. Dr. Kusnezov, the information collected for the 
Big Data Science Initiative is obviously very sensitive 
information. Almost 600,000 veterans have voluntarily given DNA 
and other samples that can be used, and what I want to know is, 
how is the VA and the DOE working together to implement federal 
requirements for cybersecurity?
    Dr. Kusnezov. Thank you very much. I would add to your list 
of the veterans who have signed up the Secretary of Energy. 
Secretary Perry also joined personally in May of 2017 donating 
his DNA and his medical records to the set so security of 
course is important. The personal health information enclave, 
the initial one we launched at Oak Ridge National Laboratory is 
what's considered moderate with enhanced controls under the 
FIPS 199 standard that meets both HIPAA and HITECH Act 
requirements. So we've set up an enclave consistent with the 
protection standards, but in addition, through our CIO Office, 
through our cybersecurity specialists and privacy specialists, 
we do external reviews of the enclave. We also have engaged the 
VA counterparts in the information security offices for their 
assessment of how we protect the data.
    In addition, we were very sensitive to appropriate use. 
Housing the data is one thing but who gains access is done 
through training program. We identify laboratory people who 
will be engaged but we run that through the VA. We have created 
teams, VA and DOE laboratory scientists, who are attacking the 
key problems that the VA has surfaced. The members of the teams 
that are allowed to access the data is controlled by the VA 
once we go through the training requirements, and so just 
housing the data doesn't give anyone access to the data. We 
worry about the control. We worry about the use of the data for 
the purpose and we monitor that through IRB processes as well.
    So, you know, we've set up certainly an enterprise 
sensitive to the use and protection of the data for the very 
reason you remarked.
    Mr. Veasey. With--you know, with you putting in all those 
parameters to protect the information, are there any challenges 
to accessing the complete medical records of veterans when need 
be? I guess what I want to know is, is it easily accessible, 
quickly accessible in situations where it needs to be?
    Dr. Kusnezov. So there are two parts to your question. 
Technically it is easy to access now in terms of the tool, the 
infrastructure we've set up, hardware and software, the 
learning environment. What is still a bit of a challenge is the 
IRB process. You know, what we've been doing here is new. Every 
step we take is new for everybody in terms of how we access 
data, and I think as we try and create the IRB structure for 
accessing veterans' data, we're sensitive to the fact that 
machine learning and artificial intelligence will kind of 
invert the world that people are used to. Normally when you 
have a researcher looking at data, they will pull the specific 
data they want to address a particular problem. If you're 
trying to learn from more than 22 million veterans' health 
records that span decades from genomic data, from images and so 
on and apply machine learning, the way you access the patterns 
of use are quite different than how anyone else has ever looked 
at this data, and so walking through the IRB and setting up the 
right protocols to allow access is a process that we're still 
working through. So we've done some. We can technically access 
the data. We have accesses and controls in place but the policy 
side, we are still working through how we get everyone to think 
about where the future is in terms of learning from data.
    Mr. Veasey. Thank you.
    Madam Chair, I yield back.
    Chairwoman Comstock. And I now recognize Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, and thank you to our 
witnesses today.
    Let me just--this is not directly on technology, but it's 
dealing with a VA issue. Some of the things that you're 
describing that have motivated you to focus on trying to find 
technological solutions like depression, sense of hopelessness, 
et cetera, a lot of that can be traced, some of us believe, to 
the use of opiates by the VA, and some of us believe that the 
VA has taken the easy way out simply by prescribing opiates to 
somebody with a problem, which when we you supply that kind of 
drug, you're going to end up with somebody with serious 
problems.
    Now, should the VA be permitted to use cannabis? Should 
they have that as an option rather than just opiates? And I've 
got some other questions that go directly to technology but 
could I have your opinions on that just a yes-no or something 
like that?
    Mr. Wordin. All right. I'll jump in.
    Mr. Rohrabacher. Okay. Should should cannabis be an option 
for VA in terms of treatment of our folks rather than just 
opiates--well, it's not just opiates? Do we know opiates----
    Mr. Wordin. I understand your question.
    Mr. Rohrabacher. Okay.
    Mr. Wordin. Well, I've been doing this for 10 years.
    Mr. Rohrabacher. Yes.
    Mr. Wordin. And I've had over 30,000 veterans come through 
my program, and I will tell you unequivocally that many of the 
veterans in our program use cannabis and they use it as an 
alternative to opioids, so----
    Mr. Rohrabacher. Is that good?
    Mr. Wordin. It seems to be working because they're all 
still alive.
    Mr. Rohrabacher. All right. Does anybody else have an 
opinion on that? Okay. I won't force you into commenting 
publicly on that. Okay.
    Yes, there are controversial issues. I would suggest that 
it is sinful that we do not permit our veterans that option. 
The veterans, doctors that I know, countless--not countless. I 
know a number of veterans who the doctors have had to pull 
aside and go to them in an off-campus, you know, situation 
where they could then recommend marijuana, and it's ridiculous 
that we have to put doctors in a situation like that where they 
can't even recommend what they think is the right treatment.
    Mr. Meek, you mentioned that it is difficult for medical 
devices to get approval. We find the same is true with 
commercial items as well like the FDA and others as well as 
other regulatory things. Could you give us a little more detail 
on that?
    Mr. Meek. Sure, and you talked about the FDA specifically 
and I'll reference the Ekso Suit, which is the primary device 
that we fund. You know, certainly you have to go through many 
phases of the clinical trials. Then you have to go through 
different phases for FDA approval, and that takes years, I mean 
literally years.
    Mr. Rohrabacher. And people are suffering during those 
years.
    Mr. Meek. Exactly.
    Mr. Rohrabacher. And do you have an example of a device 
that was left behind or delayed so much that people were left 
to suffer?
    Mr. Meek. Well, again, not to beat a dead horse, but the 
Ekso Suit, you know, this has proven to--I mean, I know one 
specific veteran from Iowa who was told he'd never walk again 
and going through six months of rehab in the Minneapolis VA 
with a device we donated, he was able to walk his daughter down 
the aisle at her wedding. So it does work.
    Mr. Rohrabacher. Let me just note that I had serious 
troubles in my arms, and I know a lot of veterans get this as 
well. Actually all of the cartilage was gone. I'm a surfer and 
I ended up surfing all the cartilage away in my arms. I know 
how painful that was, and what's really helped is, I have had 
shoulder replacements that were, I believe, developed to help 
our veterans and now they've helped all of us. Do we have a 
situation where veterans are having to wait? Because I know how 
painful that was. Are our veterans having to wait to use the 
technology that we've developed?
    Mr. Meek. I think the question is whether they're actually 
getting the technology via the VA or through private 
facilities. So private rehabilitation facilities will get it 
much more quickly and it's much more accessible than going 
through the VA process of them going through the FDA approvals 
whether to get the funding or not, because it doesn't come from 
the VA here in Washington; it's each individual VA has its own 
budget and so it's up to them to figure out what they deem 
appropriate or necessary for their veterans' care and so that's 
where we step in.
    Mr. Rohrabacher. Well, new technologies and new medicines 
are really elongated in the process for us to use them, and 
when you mentioned batteries, about how new batteries will 
probably help and many of these challenges that we face are 
helping the disabled.
    Let me just note that there are new batteries on the way, 
and Dr. Goodenough, the inventor of the lithium battery, has 
had a major breakthrough that should have an incredible impact 
on the things we're talking about, but then again, we have to 
make sure that the FDA approves the use of these batteries and 
everybody else approves the innovation all the way down.
    So I'm very pleased that you alerted us to the bureaucratic 
problems that have to be overcome in utilizing new technologies 
for our veterans. Thank you very much.
    Chairwoman Comstock. Thank you, and I now recognize Ms. 
Esty for five minutes.
    Ms. Esty. Thank you, Madam Chairwoman. I want to thank the 
Chairwoman and Ranking Member Lipinski and Chairman Weber and 
Ranking Member Veasey for joining us here today.
    As a member of both the Science, Space, and Technology 
Committee and the Veterans Committee, I want to thank all of 
you for your important work here today and give a real shoutout 
to Mr. Meek and SoldierStrong based in Connecticut, and we're 
really grateful for the work that you've done. All of us in 
Connecticut know people who died in the Twin Towers, and that's 
a searing memory and your commitment to that. My niece was one 
of those who answered that call and served in Afghanistan, and 
I know how important the work all of you are doing.
    I think it was you, Mr. Meek, mentioned no DARPA for the 
VA, and Dr. Major, you've also talked about the VA does not--
has aging facilities doing research. So I have a couple of 
questions here so I'm going to ask all of you to say whether 
you think there ought to be a DARPA for the VA or rather 
whether we should be using DARPA as it exists but task them 
with VA-specific goals because that's what's happened around 
exoskeletons. I mean, that early work was around exoskeletons 
through DARPA. They've kind of dropped it. It's now been left 
for VA to pursue, so if people could opine on that, please?
    Dr. Major. If you don't mind, I'll begin. Yeah, I mean, 
essentially, in terms of funding mechanisms, we're obviously 
for additional funding, the typical way that the mechanisms run 
in the VA, there are certain priorities that research is 
directed towards. I mean, for instance, the prosthetic needs of 
women, for example, that's something that's come about mainly 
because of the growing population of women veterans, but 
essentially those type of priorities are fit into existing 
mechanisms, right, and I actually would look forward to 
something where there is maybe more targeted mechanisms, 
targeted funding mechanisms, speaking specifically towards 
certain priorities. DARPA may be a way to do that or some 
different formation similar to that which could be implemented 
in the VA, and I think that would actually be quite effective. 
Again, maybe not DARPA in and of itself but something that 
could work effectively in the VA that would allow individuals 
to target certain priorities, and I think that would help with 
the technology development, the advancement, and the 
implementation in the VA specifically which I think essentially 
is badly needed.
    Ms. Esty. Mr. Wordin, I know that actually under Dr. 
Shulkin, his only clinical priority was on suicide prevention. 
You've talked about a lot of feedback information. A question I 
have for you is, you're collecting a huge amount of important 
information, and much of it tracks with what we know 
anecdotally as well as, you know, the research beginning to be 
done about feedback. Do we have an ability to share or how 
would we go about sharing that important information that 
basically you're developing with the privacy concerns and as 
proprietary to you? And so here's part of the challenge. We 
have innovative work being done in the private sector in order 
to push it through all the VA. Then we have these questions 
about access, who has access to the data, how do we safeguard 
it and how do we share that information that you're developing 
that would help us develop better programs for veterans?
    Mr. Wordin. Okay. Well, that's a--I'll tackle that in 
pieces.
    First off, under Secretary Shulkin and under President 
Trump, suicide prevention and mental health is the number one 
priority and yet they don't--there's no visible funding for 
technology that addresses those issues, not a single dime. So 
that's one area of concern that we have.
    With the testing that we're doing right now, we're not 
collecting--we're collecting individual information but we're 
not identifying the individuals. So it's a blind study so 
there's no privacy concerns with that. With our program in 
general, we partner with the VA and we track particularly 
mental health status and suicide ideation of every participant 
in our program, and we have done that on a longitudinal basis 
for some time, and that information is contained or housed in 
their VA medical records so we're able to deal with the privacy 
in that regard. So as long as the VA medical records are 
private and they have security, then the information that we're 
gaining will have that same security.
    Ms. Esty. I want to follow up with you afterwards because 
we had some interesting testimony over in the Senate on gun 
violence issues and work that L.A. is doing through texts to 
deal with students who have suicidal ideation and other issues. 
So I think there may be alternatives that we can look at that 
have been developed elsewhere that could help marry the 
technology that you're developing to connect to, say, the VA 
hotline. You know, how can we have an ability to connect 
because that's one of those issues we've had. How do people 
even know about the VA hotline? Make sure you've got it 
staffed, I don't know if you've looked at that at all?
    Mr. Wordin. Well, actually, when we do have focus groups, 
and as the device has been developed, it has four options when 
you have a PTSD episode, whether it's self-resiliency or it's 
contacting a family member or a peer or whether it's contacting 
the VA hotline or 911, and what we find is that most veterans, 
I would say over 80 percent of veterans, would rather connect 
with a peer or a family member rather than a stranger on the VA 
crisis hotline.
    Ms. Esty. That tracks with all the other research we have 
that they'd rather have peers, so again, I'm over time but I 
really want to thank all of you for your important work on 
these initiatives and urge you to continue to bring your ideas 
forward so we can do a better job to serve those who have 
served this country. Thanks very much.
    Chairwoman Comstock. Thank you, and I now recognize Mr. 
Hultgren for five minutes.
    Mr. Hultgren. Thank you, Chairwoman.
    Thank you all so much. This is really important. There's 
nothing more important that we could be doing than caring for 
our veterans, letting them have every opportunity for full 
lives that are fulfilling and continuing to be amazingly 
productive, so thank you for your work.
    Dr. Kusnezov, if I could first address a couple questions 
to you. A unique feature of the DOE-VA partnership is that the 
Oak Ridge National Lab facility will be able to host protected 
VA health data. It's the only institution outside the VA to be 
able to do so. What steps is DOE taking to protect the personal 
information of our veterans? And also a follow-up, should DOE 
also be allowed to host secure data from other sources such as 
private industry?
    Dr. Kusnezov. So thank you very much for that question. The 
data security piece is very important to us. Certainly, 
compliance with HIPAA and HITECH are important. We have a 
process we put in place to secure the data in the enclave. It 
includes an annual external review from a third party that 
reports back to the feds, and then we provide the authority to 
operate the enclave. We engage our cybersecurity and privacy 
experts and counterparts from the VA to oversee all of this so 
we're very careful about data use and protection for this 
enclave.
    Mr. Hultgren. Do you think there is opportunity to host 
other secure data from other sources?
    Dr. Kusnezov. These are things we already do across DOE for 
many different reasons from other agencies, for many different 
reasons, so yes. The simple answer is yes.
    Mr. Hultgren. DOE houses four of the top ten fastest 
supercomputers in the world and is the principal federal agency 
for leadership in computing facilities. How will providing DOE 
with access to the VA dataset benefit healthcare research 
specifically for veterans?
    Dr. Kusnezov. I think what we've started to find in 
applying the basic existing tools and artificial intelligence 
is they break rather easily at the scales of the veterans' data 
set. The complexities, the size, the amount of information 
contained already exceed what standard toolsets are allowed 
to--you know, can accommodate. DOE is very interested in 
pushing the limits of technology and supercomputing and AI, and 
these kinds of stresses are very interesting to us in terms of 
where the next generation of more cognitive tools will come 
from. So we're going to be pushing this data. The data itself 
is the mechanism in which we set up this next frontier of AI-
inspired simulation.
    Mr. Hultgren. Great.
    Dr. Major, thank you for being here, grateful for your 
work, so proud of Northwestern, and incredible accomplishments 
that continue to come out of your work and others' work there 
at Northwestern, so thanks for being with us. Getting older 
brings with it many challenges including the danger of falls. 
Does your research provide any quantitative data on how much 
more of a danger this is to veterans in need of prosthesis or 
orthosis as compared to veterans who don't require such 
devices?
    Dr. Major. Thank you for the question. Yeah, I'm not 
particularly aware of any research that has targeted 
specifically veterans of that nature and what that distinction 
is between those again who do use prosthetic devices and those 
who may not in terms of fall and fall risk. That type of 
research I think is certainly needed. I think anything in terms 
of looking at specifically different types of veterans, the era 
which they come from, the combats in which they maybe perhaps 
served, I think that particular research certainly would be 
helpful in trying to target certain rehabilitation technology, 
whether it's prosthetic and orthotic devices or other types of 
rehabilitation technology in order to target that specifically 
to individual cohorts. I think it's something that can be done, 
and, you know, speaking again to some of the issues that were 
brought up today, the veteran statistics, the type of data that 
we have because it is such an integrative healthcare system, 
it's ripe for that type of research essentially that cannot be 
conducted necessarily on a wider scale.
    I think the resources we have available to us through the 
VHA is just a perfect opportunity to do that type of work. Some 
of which is currently being done, but again, I think we could 
take better opportunity of that.
    Mr. Hultgren. Great. Quickly, Dr. Major, if I can follow 
up. Clearly, our goal is to continue to improve the quality of 
life of veterans but also for all people. I wonder with your 
research and work in prosthetics, how is it making its way to 
companies that develop such devices that could benefit from 
your findings and in turn provide better technologies to 
veterans and to all people?
    Dr. Major. So one of the benefits that we have is 
oftentimes the partnerships that we develop through a lot of 
these research efforts so just to use an example, my research 
in particular, even though it is directed through VA funding, 
it also includes partnerships with academia, for instance, so 
Northwestern University, and in addition to that, even industry 
partners as well, so much of the technology that is developed 
and the patents that are then developed through those efforts 
are jointly owned, right, so it would be owned by the VA as 
well as industry partners or academia as well. And so that is a 
way, that's a method in which the technology that is developed 
by funding supported by the VA that then can be brought out and 
benefit civilians. So we do a lot of that, in fact, and I think 
it's a great mechanism.
    I will say that, you know, in terms of technology transfer, 
I think if certain mechanisms could be developed within the VA 
to help that, to help advance that process would certainly be 
beneficial because there is a lot of great technology that is 
developed in the VA, and these efforts and the funding through 
the VA does support that but I think trying to get that out to 
the civilian population would certainly be of great benefit.
    Mr. Hultgren. I'd love to see that.
    My time's expired. Thank you all so much for your work. I 
yield back.
    Chairwoman Comstock. Thank you, and I now recognize Mr. 
McNerney for five minutes.
    Mr. McNerney. I thank the Chair. I thank the Committee for 
having this hearing, and I have to say, I got excited listening 
to your testimony.
    Let me start with Dr. Kusnezov. A federal government 
scientist who had worked for the VA since 1983 made more than 
$400 million when he sold a company for $11 billion to this 
pharmaceutical giant Gilead in 2012. The drug was then 
discovered with federal resources and intended to treat 
veterans with Hepatitis C but, unfortunately, once the drug was 
sold to the private company, it was out of reach for veterans 
and for the VA both. So as the VA and the DOE work together 
with the private sector, how do we also ensure that the data 
and technology resulting from taxpayer resources and labs is 
not exploited by startups and private sector entities solely 
for the commercial gain for a few individuals?
    Dr. Kusnezov. Thank you. No, that's a great question. In 
our partnerships, there are some fundamental tenets we have. 
One is open source for the tools we create for the very reason 
you mentioned. We do have some partnerships with pharma, for 
example, with GlaxoSmithKline right now, an effort called ATOM, 
also related to all of this activity. What we do in the space 
with pharma and the technology companies is precompetitive so 
it's by definition open to other entities to join and openly 
available and accessible for that reason. So we're sensitive to 
the question you're asking, and we have to manage the middle 
ground in a suitable way so that it does draw in the right kind 
of risk mitigation from the private sector, which adds value to 
this, but does not do this at the expense of others. And so we 
are keeping an eye on it, again, open source and precompetitive 
are foundational here.
    Mr. McNerney. Okay. Well, I mean, we've seen this happen in 
other cases too so it's a very difficult situation when 
veterans can't have access to medicines that were developed 
with federal money. We need to work on strengthening those 
protections.
    Mr. Wordin, I was pretty excited about your PTSD alarm, and 
you're using data, and the graphs you showed saw a spike in the 
heart rate and then additional sort of physical indicators 
after that. Were you able to identify in those cases the 
physical event or the emotional event that triggered those 
reactions?
    Mr. Wordin. We aren't able to do that but we asked the 
participants in our study right now to keep a journal, and they 
were able to document what the environment was. We try to look 
at both immediately before, a few minutes before, and maybe a 
half-hour before, and it's great empowerment to an individual 
veteran to understand what causes a PTSD episode for them 
because it's different for each veteran.
    Mr. McNerney. Absolutely, and if--I mean, if you could 
understand what's triggering it, then that leads to all kinds 
of opportunities for treatment and mitigation of those sorts of 
triggers.
    Mr. Wordin. Absolutely, and the great thing about the 
device is, it will measure that and see if what you're doing to 
mitigate is actually working or whether you see whether the 
prescription drug or the therapy options that the VA or your 
healthcare provider has given to you, you can objectively 
understand how it's working, what is working, if it's working, 
and so it's--I mean, that's the great thing about the device 
is, it's completely objective. It is what it is.
    Mr. McNerney. And do you see similar sort of 
characteristics, you know, data characteristics, from different 
individuals with regard to PTSD triggers?
    Mr. Wordin. Well, yeah. I mean, when you look at the spike, 
if that's what you're referring to, yes. I mean, that's a 
common theme. If someone's having a PTSD episode, that's how 
the device detects that PTSD episode is through that spike in 
heart rate or the heart rate variation.
    Mr. McNerney. Well, we saw a spike and then we saw a little 
bit of quiet period and then we saw additional----
    Mr. Wordin. That was--yeah, because we--the graph that 
you're referring to, that showed physical activity, because I 
wanted to differentiate, because one of the questions I always 
get is, how does it know whether it's physical activity or 
whether it's a PTSD episode, and the device is able to detect 
because the steepness of the curve when you're having a PTSD 
episode versus when you're, say, riding your bike, there's a 
different in how your heart rate elevates and how fast it 
elevates.
    Mr. McNerney. Thank you. I yield back.
    Chairwoman Comstock. Thank you, and I now recognize Mr. 
Webster.
    Mr. Webster. Thank you, Madam Chair. Thank you all for 
appearing. This is great work you're doing and we really 
appreciate it.
    Mr. Meek, you talked about--I don't know your exact words 
but you talked about the fact that technology was ahead of the 
VA's practice in a sense and that you get these technological 
advances that are not a part of the normal VA treatment. I 
would assume--I don't know this is true but I make the 
assumption that advances in technology usually cost more, and 
that if it does more, probably costs more, but my question 
would be, how do we balance that? How do we mold together 
availability and advancement so that--I mean, you could have 
the scenario where you make an advancement, and if you spend 
all your money making advancements, then you could come up with 
something that helps a veteran 10 times better than current 
practice. However, you could only afford one out of 10 where 
under the old technology, you could afford 10 out of 10. Is 
there a balance there? Do you see what we might be able to do 
to--we certainly want to make advancements but we also want to 
be able to pay for it.
    Mr. Meek. Sure. So I think to go back to your other 
question about whether the DARPA should be a model to transform 
to the VA, I think it should be. You know, we put the most 
advanced technology we can in our warfighters, but once it's 
done meeting DARPA specs for the battlefield, that's it, the 
funding stops. There's nothing to commercialize that for the 
private sector back at home, and so you look at a lot of these 
devices. I mentioned how the average cost that we fund is 
$100,000 with a couple of them almost $200,000. Think about the 
original cell phone. It was the size of a small suitcase, you 
know, and cost a thousand dollars. Well, today it's the size of 
a calculator and it fits in your pocket, and it's a 
supercomputer. So having that continued research and 
development on a specific device, whatever it may be, for 
advancement, you know, where the funding comes from, there are 
separate pools that we could look at but you have to keep that 
funding going because over time it will bring costs down. You 
know, a lot of these devices are so advanced that yes, they 
cost a lot right now but 10, 20 years from now, knowing some of 
the work that Dr. Major's doing, you know, they're hardwiring 
some of these devices in individuals' brains. You know, I've 
seen virtual reality where somebody lost their arm in Vietnam, 
and through virtual reality actually felt himself opening a 
doorknob, and he cried because it was the first time he touched 
something in 25 years.
    So this funding has to be found somewhere, because in time, 
not only will it reduce the cost of those devices, it's going 
to reduce cost of medical and VA care for those patients.
    Mr. Webster. Well, I saw a live presentation of the type of 
technology you showed in your video, and I was just totally 
astounded someone could actually go from a sitting position and 
rise with no help at all, not even necessarily using their 
arms. They could just get up. So I want everybody to have that. 
It's just the idea of making it available. It's expensive, and 
sometimes that would come at the expense of any more 
technological advances.
    I had another question. That was Mr. Wordin. You 
mentioned--this doesn't have anything to do with that 
particular issue, it has to do with self-directed mental health 
care, which I have--you said something about that, I don't know 
exactly what you said, but it struck a note that that's what 
you were talking about in that the person would help in the 
direction of what they would be choosing for their mental 
health care. I have seen that work in the private sector. Do 
you think that ought to be more uniformly applied in the VA?
    Mr. Wordin. I don't know if I'd use the word ``uniformly'' 
but I think it needs to be available because every veteran that 
suffers from PTSD is different. If you've seen one veteran with 
PTSD, you've seen one veteran with PTSD, and I think what they 
find as their support system individually is the most important 
path, and the great thing about the HEROTrak device is, it 
gives them feedback individually so then they can make 
decisions for themselves based on how their quality of life is 
that they want or that they have right now. And so if you go to 
the VA and you see your mental health clinician and he goes 
well, how are you sleeping; well, I'm not sleeping so good; 
well, we're going to give you some Ambien. Well, how do you 
know whether that actually does any good for you? Well, with 
the device, you're able to monitor and look at sleep patterns, 
look at PTSD episodes during sleep, and be able to decide 
whether or not that's something--because every prescription 
drug that you take has a side effect or it has some kind of 
addictive quality, and that affects your quality of life as 
well.
    I mean, we have veterans in our program that literally have 
suitcases full of prescription drugs that the VA sends them on 
a regular basis, and then when they get into our program, they 
get off of those prescription drugs and yet the VA continues to 
send them the prescription drugs, and when you talk about costs 
for technology, technology is way cheaper than prescription 
drugs.
    Mr. Webster. Yes. That's not shocking. That's awesome.
    Thank you all for appearing, every one of you. It's been 
very encouraging, each of you and your work. I yield back.
    Chairwoman Comstock. Thank you, and I just want to take a 
little prerogative too on that particular point, that if you 
can send us some of those examples with whatever way that 
protects the patient's privacy, that would just be really 
helpful in us making this case, because I think this is great 
disruptive technology that is going to save money, and the more 
we can highlight examples like that, I think as we move 
forward.
    So I now recognize Mr. Dunn for five minutes.
    Mr. Dunn. Thank you, Madam Chair. I love these joint 
Committee meetings where we're all gathered. It sort of 
underscores our interconnectedness. You know, we're sitting 
here with the Energy Subcommittee, the Research Subcommittee. 
We're talking about quantum computing for our national labs and 
it's being applied to translational genomics, and all this on 
the subject of yet another committee, Veteran's Health, so 
that's the interconnectedness that's great.
    I'm a urologist--Dr. Kusnezov, I'm a urologist. Prostate 
cancer is very near and dear to my heart. I know you're working 
on ways to determine biomarkers that determine the lethality, 
relative lethality of prostate cancer, what needs to be treated 
and how aggressively. Can you briefly outline a couple of those 
for us?
    Dr. Kusnezov. I can talk more to the technology side than 
the side that you might be more familiar with.
    Mr. Dunn. Oh, yes. I want to know the biomarker, but I do 
appreciate what you're doing, and I think that that's--you 
know, I think that that's key.
    Mr. Meek, you've partnered with VA hospitals, also I 
suppose military hospitals like Walter Reed? No, they're 
completely separate from you? Of course, they don't need your 
help, so you've partnered with the VA hospitals. How do you 
select which ones?
    Mr. Meek. So we work with the device manufacturer, you 
know, depending on what the device is. So if it's for an 
individual, sometimes they fall through the VA cracks and the 
device manufacturer will find somebody that maybe the VA won't 
fund it or the VA will fund the device but not the fitting and 
so they'll reach out to us to fill that void.
    In terms of the exoskeleton devices, again, we work with 
the manufacturer. There are 24 spinal cord injury medical 
facilities within the VA center, and so we start with those 
that have the largest population that they serve with the goal 
of hitting all those with one device to begin with and then go 
back and circle back again. So, for example, Richmond, 
Virginia, serves the largest with 5,000 spinal-cord-injured 
veterans. They have one device. They could use 25. Palo Alto 
has 3,000 to 4,000 veterans that they serve. They could use a 
few devices as well. So one doesn't cut it. It's a 
rehabilitative device where somebody goes in like going to the 
gym with a personal trainer and you set your 45-minute time and 
you do laps around the VA.
    Mr. Dunn. All right. And do you also--when you do provide 
one of these exoskeleton whatever type suits to the veterans, 
do you also provide continued support and maintenance upgrades?
    Mr. Meek. We do. When we purchase it, it also comes with a 
four-year warranty as well as training for the entire staff at 
the VA.
    Mr. Dunn. And you mentioned regulatory burdens. I just want 
you to know that we have been tasked by no less than the 
President to streamline the regulatory burdens so if you have 
regulations that you think are bad regulations, duplicative, 
get in the way, bring them to us. We love to get rid of 
regulations, especially bad ones.
    Ms. MacCallum, you're sort of a people specialist. You deal 
with a lot of people in a lot of different strata. Have you--in 
your opinion, have you seen the VAs and the veterans 
themselves, are they receptive to some of these new 
technologies?
    Ms. MacCallum. Absolutely, you know, but I think about the 
fact that just demonstrating with Sergeant Rose on the set--on 
our set, we were able to raise enough money to buy an Ekso Suit 
for a veterans hospital in one day. So I just think that the 
awareness that people need to have, and also I think the 
partnership between public and private entities is so 
important, and I think about the new VA bill that is moving its 
way through Congress and where the gaps exist, and the VA can't 
provide that assistance. They are now allowed to turn to a 
private entity in order to fill that gap, and I think we need 
to look for more ways to do that so that private enterprise and 
the VA can work most efficiently together, and then I think 
you'll see a scaling up of this technology in private 
facilities and in veterans facilities, and I think that the 
will of the people in terms of what we've seen is certainly 
behind it. And I also think that when you look at the cost-
benefit analysis in terms of taking care of veterans long term, 
and you just heard what Mr. Wordin said about the incredible 
expense of pharmaceuticals, this psychological benefit and life 
benefit of these devices hopefully will make some of those 
pharmaceuticals unnecessary.
    Mr. Dunn. Well, I share your optimism, and I thank you for 
the gratuitous plug for the Mission Act, the VA bill that we're 
carrying across the finish line right now. It's near and dear 
to my heart. I sit on that committee as well.
    Looking at 20 seconds left on the clock, and it's not fair 
to bring up the question, Mr. Wordin, that you brought up so 
cogently in your report of the stigma that we attach to PTSD 
and TBI in not just our veterans but in our active-duty troops, 
and this is a major, major problem that we have just been 
whistling past the graveyard on. If we could treat it 
perfectly, we still aren't allowed to diagnose our active-duty 
troops lest we ruin their careers, and we don't have time for 
you to comment on that but I'm glad you brought it up, and----
    Mr. Wordin. If I could, I'd like to say one thing about----
    Mr. Dunn. With the Chairwoman's permission.
    Mr. Wordin. One of the things that we found in testing, one 
of the things that was brought up to us by the VA is that vets 
wouldn't want to wear a HEROTrak because it would cause a 
stigma just for them wearing a device, but because it's an 
Apple Watch, it makes them cool, and so the stigma has been 
removed, and therefore they're getting help that they wouldn't 
ordinarily get. So we're very aware of stigma in our 
organization and the vets that we service and, you know, you've 
got to find creative ways to get around it.
    Mr. Dunn. Thank you very much. I yield back.
    Chairwoman Comstock. Thank you, and it's gathering general 
information that's good for health and wellbeing along the way 
too, right, so, excellent.
    I now recognize Mr. Palmer for five minutes.
    Mr. Palmer. I thank the Chairwoman. I'll be fairly brief. I 
have to preside over the House in a few minutes. But Ms. 
MacCallum, looking at your involvement in this, I really 
appreciate how this started with SoldierStrong providing things 
to the soldiers in the field. Some good friends of mine's son, 
Lance Corporal Thomas Rivers' sister started that program and 
sending everything from sporting magazines to staples to 
essential things, and they got to the point where her brother 
would get things and the other guys would say well, you know, 
could you share that, and it turned into a program called 
Support Our Soldiers. Unfortunately, Lance Corporal Rivers was 
killed in the Helmand Province on April 28th, 2010, an IED, but 
the program continues and has expanded, and we're having a 
banquet next Thursday night, the annual banquet. These programs 
are incredibly important for morale but also for the families. 
A lot of these guys don't get letters from home, they don't get 
things from home, so thank you for what you're doing.
    Mr. Wordin, in your testimony you mentioned that Project 
Hero has reduced participants' use of prescription drugs and 
opioids and others and antidepressant use significantly, and 
Mr. Dunn brought this up as well about--I think the process of 
dealing with these soldiers begins before they get home. The 
whole thing about PTSD, all of that begins before they get 
home, and one of my concerns, we've got 22 veterans per day 
that commit suicide, and I just have to wonder how much of 
that's related to reactions to drug use and what you're trying 
to do to reduce the dependence on drugs I think. Mr. Wordin, 
could you comment on that, how you think that might help us 
reduce what I think is an unbelievable tragedy that's occurring 
every day with veterans?
    Mr. Wordin. Sure. When you look at the report that's going 
to come out, the risk factors that they looked at--worsening of 
health status and decline in physical ability--those can be 
directly related to prescription drug use, particularly when 
you have overprescribing of prescription drugs, and it's not 
working, and therefore you start losing hope, and then it 
starts depression and then you're on the downhill spiral and 
then eventually that's what leads to suicide. So that's where I 
think the prescription drug use comes into play is because for 
doctors, the easiest solution is here's a pill, this is going 
to make you all better, whereas that's not necessarily what's 
in the best interest of that individual, and I think that's one 
of the great and exciting things about the HEROTrak is, you're 
going to be able to figure out what's in the best interest of 
the individual and be able to prescribe for that person a 
healthcare path that is actually going to make a difference for 
him.
    Mr. Palmer. Well, I thank you. I told Mr. Norman if he 
would yield to me, I would hold to three minutes. I think I 
came pretty close to that, Mr. Norman, and with that, Madam 
Chairwoman, I yield back.
    Chairwoman Comstock. Okay. We'll now recognize Mr. Dunn--
Mr. Norman. I'm sorry.
    Mr. Norman. Thank you so much. Thanks to each of you for 
taking the time to testify. It's valuable.
    I'll emphasize what Dr. Dunn said. As you move forward, if 
you see regulations that are impeding what you do, let us know 
because we've got a body here that is strong and will take your 
case to get needless regulations out of the way. It's a goal of 
the President and it's a goal of this body, this House.
    Ms. MacCallum, you've got an interesting role, as they 
described, in the people business, as an anchor and on the 
advisory board. What is your opinion on this and what's been 
your experience on the specific technology for veterans that is 
effective with raising money and raising the awareness? Is 
there one or two that you could point to?
    Ms. MacCallum. You know, I just think when people hear the 
stories of these veterans the impact that it has on their 
lives, you know, here's one veteran, Jason Geiger, who was a 
SoldierStrong Ekso Suit beneficiary. He said you cannot put a 
price on walking, you can't put a price on someone's ability to 
be six feet tall again and stand up and kiss your wife or stand 
up and hug your daughter or your son. You can't put a price on 
that. And we talk a lot about money because we have to because 
it's part of bringing this technology to our veterans but, you 
know, I think there's a will in America--I know there's a will 
in America to provide for this, and I do think that people are 
very much aware--you talk about regulations--of the waste that 
exists in the federal government in its, you know, good efforts 
in many ways to solve some of these problems but I think 
everyone sitting here is working towards efficiency and 
improving the lives of our veterans, and I think that through 
technology and through awareness, a lot of these ideas can help 
us to cut some of the waste in these programs and to produce 
more benefit.
    Mr. Norman. And that's--you know, we don't know what we 
don't know, and as--I'm glad you brought up waste because every 
agency, particularly now, can give us a roadmap as to where 
there is waste and specifics on how we can address it, and I 
hope you all will do that as you move forward because every 
dollar saved through waste goes back--would go back into 
potential good use.
    Mr. Meek, how did SoldierStrong decide which VA hospitals 
will receive the SoldierSuits?
    Mr. Meek. So again, we worked with the device manufacturer, 
and within the VA medical system there are 24 facilities that 
have a spinal cord injury unit. In addition, we also work with 
those that have a traumatic unit as well, and so the spinal 
cord injury unit will be focused more on spinal cord injury 
versus traumatic could focus on stroke, and so we'll take the 
recommendation from the device manufacturer with the goal of 
getting those that serve the largest population a device first 
and then going from there.
    Mr. Norman. Okay. Perfect. Thank you all. I think we're at 
about 12 o'clock. We really appreciate your testimony. I yield 
back.
    Chairwoman Comstock. Thank you so much, and I thank the 
witnesses for their testimony today and the Members for their 
questions. Without objection, Chairman Weber and Ranking Member 
Veasey's openings statement, which they were not available to 
make when we started the hearing, are made a part of the 
record.
    [The prepared statement of Mr. Weber follows appears in 
Appendix II]
    [The prepared statement of Mr. Veasey appears in Appendix 
II]
    Chairwoman Comstock. And I really so appreciate the great 
testimony here today. I think we're really seeing disruptive, 
positive, innovative technology, and I think there's no 
question that we need to reallocate resources, get new 
resources, and make sure we're providing this choice because a 
lot of the things we're talking about with our veterans and 
what we're trying to improve are more veterans choice, and what 
you're offering is more choice and more positive outcomes, and 
I really do think it's a lot of win-win solutions that you have 
here. So we look forward to working with you on how we can 
redirect and reprioritize this so we actually end up with 
better outcomes that will ultimately most importantly save 
lives but also save money. So this is real exciting, and I 
think this is the beginning of what I hope will be continued 
discussion on this. We're already discussing maybe some 
legislation and efforts that we can work on with our colleagues 
here on this Committee who are also on the Veterans Committee. 
So thank you for your inspirational work.
    And the record will remain open for two weeks for 
additional written comments and written questions from Members, 
and this hearing is now adjourned.
    [Whereupon, at 12:05 p.m., the Subcommittees were 
adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]

</pre></body></html>
